No.

-

IN THE SUPREME COURT OF THE UNITED STATES

RAUL RAMOS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
I, George W. Aristotelidis, do certify that on this date, June 21, 2021, pursuant to Supreme
Court Rules 29.3 and 29.4, I have served the attached Motion for Leave to Proceed in Forma Pauperis
and Petition for a Writ of Certiorari on each party to the above proceeding, or that party’s counsel,
and on every other person required to be served. I have served the Supreme Court of the United
States via Federal Express, priority overnight. The Solicitor General and the petitioner were each
served by depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid. Assistant United States
Attorney Margaret Embry has been served by email.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

1

Margaret Embry
Assistant United States Attorney
601 NW Loop 410,
Suite 600
San Antonio, Texas 78216
margaret.embry@usdoj.gov
/s/ George W. Aristotelidis

George W. Aristotelidis
Requesting Appointment
In Forma Pauperis
Tower Life Building
310 South St. Mary’s St.
Suite 1910
San Antonio, Texas 78205
(210) 277-1906 - Telephone
(844) 604-0131 – Telefax
jgaristo67@gmail.com
CJA Appointed Counsel

2

